<html>
<title> - [H.A.S.C. No. 114-113] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                            
 
                         [H.A.S.C. No. 114-113]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                  FISCAL YEAR 2017 ARMY AND AIR FORCE

                   ROTORCRAFT MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 16, 2016

                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 





                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-065                   WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     



  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bunch, Lt Gen Arnold W., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force (Acquisition); and Lt Gen 
  James M. ``Mike'' Holmes, USAF, Deputy Chief of Staff for 
  Strategic Plans and Requirements...............................     5
Williamson, LTG Michael E., USA, Military Deputy to the Assistant 
  Secretary of the Army (Acquisition, Logistics and Technology); 
  and MG Michael D. Lundy, USA, Commander, Army Aviation Center 
  of Excellence..................................................     3

                                APPENDIX

Prepared Statements:

    Bunch, Lt Gen Arnold W., joint with Lt Gen James M. ``Mike'' 
      Holmes.....................................................    38
    Turner, Hon. Michael R.......................................    25
    Williamson, LTG Michael E., joint with MG Michael D. Lundy...    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brady....................................................    59
    Mr. Gibson...................................................    59
    Mr. Turner...................................................    55
    
 FISCAL YEAR 2017 ARMY AND AIR FORCE ROTORCRAFT MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                         Washington, DC, Wednesday, March 16, 2016.
    The subcommittee met, pursuant to call, at 3:36 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee convenes to review the current posture of Army and 
Air Force rotorcraft modernization programs and receive 
testimony on the fiscal year 2017 budget request.
    I am pleased to welcome our distinguished panel of 
witnesses. Lieutenant General Michael E. Williamson, Military 
Deputy to the Assistant Secretary of the Army, Acquisition, 
Logistics and Technology. Major General Michael D. Lundy, 
Commander, Army Aviation Center of Excellence. Lieutenant 
General Arnold W. Bunch, Jr., Military Deputy, Office of the 
Assistant Secretary of the Air Force, Acquisition. Lieutenant 
General James M. ``Mike'' Holmes, Deputy Chief of Staff for 
Strategic Plans and Requirements.
    Gentlemen, thank you for being with us today, and thank you 
for your service.
    Our witnesses today will provide testimony on the fiscal 
and programmatic challenges currently facing Army and Air Force 
rotorcraft modernization. Because of the fiscal realities and 
increased missions, the military services have been forced to 
prioritize near-term readiness at the expense and assumed risk 
of modernization programs, and rotorcraft modernization has 
been particularly impacted in the fiscal year 2017.
    We know the proposed budget request for fiscal year 2017 
does not follow the balanced budget agreement, BBA, of 2015. 
While our near-peer adversaries continue to invest in more 
modern capabilities and continue to close the technology gap, 
this budget request cuts force structure and modernization 
programs from the Department's base programs.
    For example, the Army states in their written statement 
that, quote--``though aviation modernization is a priority, FY 
2017 will reflect over $2 billion in reduced funding when 
compared to fiscal year 2016. This has caused the Army to 
decelerate fleet modernization by procuring fewer UH-60 Black 
Hawks, AH-64 Apaches, and CH-47 Chinooks in FY 2017,'' end 
quote.
    I can assure you, this committee is working to reverse this 
dangerous trend in rotorcraft modernization and is working to 
provide the necessary funding to help mitigate some of these 
current challenges. For fiscal year 2017, this subcommittee 
will continue to support the need for fielding most modernized 
rotorcraft available for both the Active and Reserve 
Components.
    Two critical issues this committee has been concerned about 
for many years is in regards to accelerating aircraft 
survivability equipment and degraded visual environment 
capability onto current rotorcraft programs. We expect to hear 
today about how the Army and Air Force are addressing these 
critical needs in a timely manner.
    We are also interested in hearing the Army's position on 
the recent recommendations put forward by the National 
Commission on the Future of the Army, relating to the Army's 
aviation restructuring initiative, ARI, and get a better 
understanding of the costs associated with implementing these 
recommendations.
    I would also like to hear about the Air Force's plans to 
replace the legacy helicopters that are used by the Air Force 
in providing security in the ICBM [intercontinental ballistic 
missile] fields in Montana, North Dakota, Wyoming, and several 
other States.
    The commander of U.S. STRATCOM [Strategic Command] has 
stated, as has the Secretary of the Air Force, that it is not 
possible to mitigate the alert requirement without replacing 
these helicopters, so I look forward to hearing about your 
plans to address this urgent issue.
    I would like to now recognize my good friend from 
California, the ranking member of the subcommittee, Ms. Loretta 
Sanchez, for any comments that she would like to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 25.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Mr. Chairman, and thank you to all 
the generals for being before us to talk about what is 
incredibly important, the Army and Air Force helicopter 
programs. And it comes at an important time before the Armed 
Services Committee because, as you know, we are trying to make 
decisions about the DOD [Department of Defense] budget for 
2017. As I said this morning in full committee, it comes with 
some very hard choices because we cannot choose everything, we 
cannot do everything.
    If we are going to augment what the President's budget or 
change the President's budget that came over, then we have to 
ask ourselves, well, do we need it, how are we going to pay for 
it. It would be nice to pretend that we can fund everything. 
Unfortunately, that is not the case.
    Given that context, the budget request from Army and Air 
Force helicopter programs has shown us that choices were made, 
what a true choice really looks like. For both services there 
simply wasn't enough funding to continue building new 
helicopters, start new programs for the future, and also 
upgrade the helicopters that we have in service right now.
    Both services had to make the tough choices and the budget 
request does reflect that. For example, in order to keep AH-64 
Apache production on track, the Army was forced to dramatically 
cut back the Black Hawk production compared to last year. The 
reduction in Black Hawk helicopters is, for me, a little bit 
troubling, of course as you know, because we were looking to 
the National Guard units, including those in California, to 
eliminate the old A model helicopters that they now have.
    These helicopters in California, it hits right home because 
they are the ones that we use to fight the fires that we have 
seen in California and other natural disasters. The Army was 
planning to get rid of all the old Black Hawk helicopters and 
replace them by 2013, and in last year's bill we asked for ways 
in which to accelerate that program.
    So the cuts in fiscal year 2017 appear to be moving us in 
the opposite direction. And as concerning as those cuts are, 
they actually could get worse if the Army is required to keep a 
large number of Apache helicopters in the National Guard, as 
was proposed by the National Commission on the Future of the 
Army. Keeping those Apaches in the Guard may make sense, but it 
comes at a much higher price tag.
    The Army also had to cut back on the Chinook and on the 
Lakota helicopter production, both of which are successful 
programs that are otherwise doing just fine. But again, Mr. 
Chairman, when we look at it, real choices were made.
    On the Air Force side we also see limited funding leading 
to some very difficult decisions. The Air Force is trying to 
keep its combat search and rescue helicopter program on track, 
but to do that it had to slow its plan to replace aging UH-1 
helicopters that are currently used in ICBM field tests you had 
mentioned earlier.
    In terms of future investments, it is good to see that both 
services managed to protect research and development efforts, 
like the future vertical lift programs, the improved turbine 
engine program, and critical new aircraft defensive equipment 
investments.
    You have made some hard choices, so I am interested in 
trying to figure out how you came about that, why, and what it 
really means to us. And with that I will yield back.
    And thank you, Mr. Chairman.
    Mr. Turner. Thank you. And without objection, all 
witnesses' statements will be included in the hearing record. 
And we only have two opening statements here today, General 
Williamson followed by General Bunch. General Williamson.

STATEMENT OF LTG MICHAEL E. WILLIAMSON, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND 
  TECHNOLOGY); AND MG MICHAEL D. LUNDY, USA, COMMANDER, ARMY 
                 AVIATION CENTER OF EXCELLENCE

    General Williamson. Chairman Turner, Ranking Member 
Sanchez, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, thank you for the invitation to 
discuss the Army's fiscal year 2017 rotorcraft modernization 
programs. And for the opportunity to appear with our Air Force 
counterpart, Lieutenant General Bunch.
    With me today is Major General Mike Lundy, the Commander of 
the Army Aviation Center of Excellence. Mr. Chairman, thank you 
for making our written statement a part of the record for 
today's hearing.
    Mr. Chairman, aviation is the Army's largest portfolio of 
programs, and the one most impacted by our current budget 
environment. The high level of operational demands, combined 
with the fiscal challenges, contributed to a substantial 
reduction in Army aviation funding. As you mentioned in your 
opening statement, a $2 billion reduction from fiscal year 2016 
to fiscal year 2017, and an additional $531 million reduction 
as a result of the fiscal year 2015 Bipartisan Budget Act. The 
immediate result is the procurement of fewer Black Hawks, 
Apaches, and Chinooks.
    The Army presented the aviation restructuring initiative, 
also known as ARI, as part of our fiscal year 2015 budget plan. 
By reinvesting the savings and the cost avoidance garnered by 
ARI, Army aviation was able to continue to field its most 
modernized aircraft while developing and fielding the right 
disruptive technologies to improve mobility, lethality, 
survivability, and mission command.
    The Army is currently reviewing and assessing the recently 
released report from the National Commission on the Future of 
the Army [NCFA], which contains a number of recommendations in 
addition to what we have done on ARI for which resourcing and 
modernization may need to be adjusted.
    Still, we are moving forward with our rotorcraft 
modernization effort, including identifying, addressing known 
capability gaps, but at a much slower pace. The fiscal year 
2017 funding request breaks down as follows.
    In science and technology [S&T], the Army supports several 
critical efforts to enable the next generation of rotary-wing 
capability, including advanced threat detection system, 
degraded visual environment mitigation, and joint multi-role 
technology demonstrator, which will inform affordable 
requirements and reduce the risk associated with the future 
vertical lift program.
    With regard to new systems, the fixed-wing utility 
aircraft, a replacement for the C-12 and the C-26 platforms, is 
projected to be selected and begin fielding in fiscal year 
2018. In the area of modernization we are focused on improving 
the Apache, Black Hawk, and Chinook helicopter fleets, as well 
as saving money for the American taxpayer by pursuing a 
multiyear contract in fiscal year 2017 for the Apache.
    We will award the ninth multiyear contract for Black Hawk, 
and complete the second 5-year multiyear contract for Chinook 
in fiscal year 2017. In addition, we are continuing to 
modernize our unmanned aircraft systems fleet, comprised of 
small, the Raven and the Puma, medium, the Shadow, and the 
large, the Gray Eagle components.
    In the area of reset and sustainment, we are focused on 
returning Army equipment to the required level of combat 
capability so that we will be prepared for the next fight or 
the next contingency.
    We are also divesting the aging TH-67 training helicopters, 
as well as the OH-58 Alpha and Charlie Kiowa, and the Kiowa 
Warriors, and we are also doing everything possible to reduce 
the number of UH-60 Alpha Black Hawks in our fleet.
    Other key investments in fiscal year 2017 include the 
improved turbine engine program for Apache and Black Hawk, to 
meet worldwide operational requirements for high-altitude and 
hot conditions, the joint air-to-ground missile, the next 
generation of aviation-launch missiles, and in the area of 
aircraft survivability equipment, acceleration of the common 
infrared countermeasure system.
    Mr. Chairman and distinguished members of this 
subcommittee, we are grateful for your strong and steadfast 
support for America's soldiers, for our soldier aviators, as 
well as our Army civilians and their families.
    This concludes my opening remarks, Mr. Chairman, and we 
look forward to your questions.
    [The joint prepared statement of General Williamson and 
General Lundy can be found in the Appendix on page 27.]
    Mr. Turner. General Bunch.

  STATEMENT OF LT GEN ARNOLD W. BUNCH, USAF, MILITARY DEPUTY, 
      OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE 
   (ACQUISITION); AND LT GEN JAMES M. ``MIKE'' HOLMES, USAF, 
   DEPUTY CHIEF OF STAFF FOR STRATEGIC PLANS AND REQUIREMENTS

    General Bunch. Thank you, Chairman Turner, Ranking Member 
Sanchez, and other distinguished members, for the opportunity 
to address the subcommittee. We greatly appreciate the work you 
do and the support you provide our airmen and their families. 
It is a privilege to be here, and General Holmes and I look 
forward to answering your questions.
    General Holmes and I prepared a joint written statement and 
we have submitted that for the record. I will not go through 
that statement and read it here. I will just make a few opening 
remarks for both of us and then will be ready to answer your 
questions.
    We are happy to be here with the Army, as our collaboration 
on science and technology efforts, development and procurements 
is critical. They are great teammates and we must continue that 
teamwork to be successful. We are here to discuss the fiscal 
year 2017 budget that we have submitted and some of the tough 
choices we made as we finalize that budget.
    Air Force rotary-wing assets are critical to the Air 
Force's ability to accomplish our mission and provide worldwide 
support to combatant commanders. Our rotary-wing fleet has been 
and continues to be heavily engaged. They have conducted 
operations across the spectrum, and we are committed to 
modernizing and recapitalizing our fleet as we balance 
readiness and modernization in this budget environment.
    Although fiscal constraints may have required us to 
reassess the timing of some rotary-wing modernization efforts, 
the fiscal year 2017 PB [President's budget] reflects the Air 
Force's commitment to sustaining, modernizing, and 
recapitalizing our rotorcraft fleet.
    Our efforts are focused on modernizing and/or 
recapitalizing to address our most critical needs. The limited 
resources available since the Budget Control Act of 2011 have 
hampered our ability to balance readiness, capability, and 
capacity. And while we are grateful for the additional 
resources the Bipartisan Budget Act provides, we need your 
support in the form of stable and predictable budgets for the 
future. Your help in this area will be greatly appreciated.
    We look forward to working closely with the committee to 
ensure the Air Force retains the ability to deliver rotorcraft 
airpower for America when and where needed. Again, we thank you 
for this opportunity to testify before the subcommittee and we 
look forward to answering your questions, sir.
    [The joint prepared statement of General Bunch and General 
Holmes can be found in the Appendix on page 38.]
    Mr. Turner. Thank you. General Williamson and General 
Bunch, aircraft survivability equipment, and degraded visual 
environment technology of course are two areas of concern, as I 
stated in my opening statement. General Williamson, you spoke 
of this issue also.
    We have held several classified threat briefings, and I 
understand there is a sense of urgency for improving and 
fielding this technology on current platforms, and we certainly 
are aware of the amounts for each that are in the budget 
request.
    But if you would, to the extent that you can in an 
unclassified environment, please explain to the subcommittee 
your current acquisition strategies for ASE [aircraft 
survivability equipment] and DVE [degraded visual environment] 
technology, and what can we do to help accelerate them. 
Starting with General Williamson and then General Bunch.
    General Williamson. Sir, thanks for the question. I would 
also like to start by thanking you and this committee for your 
not only focus but your support of funding in fiscal year 2015 
and fiscal year 2016, with your understanding of the 
criticality and the importance of this issue.
    So my immediate response is to tell you that we have taken 
a two-tier approach to how we approach this. So the first is we 
have existing programs of record, and I will talk a little bit 
about those. But there is also this understanding that there 
are immediate needs that have to be addressed, and it starts 
with the threat.
    So, sir, as you and I have talked about in the past, so the 
threat today, our potential enemies have more and more access 
to technologies, so the threat comes on a number of vectors, 
whether it is MANPADS [man-portable air-defense systems] that 
have advanced in technology, or it is a cyber threat, or 
whether it is things like position location. We have to address 
all of those when you look at aircraft survivability.
    So as you know, we have current programs that look at 
common infrared countermeasures, advanced radar detection, and 
laser detection programs. But those programs we have invested 
in. It will give us a modular solution as we look at our entire 
aircraft fleet. But we also have to deal with the immediate 
threat, and so we have worked with our joint partners to 
identify immediate solutions that we can give to deploying 
aircraft so that they can have a countermeasure against the 
threat.
    I would like to also offer that General Lundy might have a 
couple of thoughts.
    General Lundy. And, sir, I want to reiterate my thanks for 
the committee's support because, you know, this is a clear and 
present threat today, and it is also--there is a long-term 
issue that we have here. And so as we look at our current 
strategy, I think we are on the right path. We have a joint 
solution that Congress has helped fund and accelerate, and we 
are moving that as fast as technology will allow to allow us to 
put it on capabilities that are currently deployed today.
    We have also been able to accelerate our current program of 
record and bring it forward sooner about 3 years, which is 
great. And then we have a huge S&T effort that is focused on 
the next generation of survivability capabilities, and that is 
really where us and the Air Force, frankly the Navy and the 
Marines, are working very closely together with our SOCOM 
[Special Operations Command] partners on a number of S&T 
efforts that will help us build capabilities for the future 
that will get ahead of this threat as opposed to reactionary.
    I think that is the key. We can't do what we did in Iraq. I 
mean, there was not a lot of threat there, but we waited until 
the threat appeared before we reacted to it. We need to be 
ahead of this.
    I think that is my key concern as the aviation branch 
chief, is how do we get ahead of the threat. That is going to 
take consistent S&T work, consistent funding. And your 
committee and the Congress have been very helpful with being 
able to do that and give us a stable way ahead.
    Mr. Turner. Mr. Bunch.
    General Bunch. Sir, thank you for the question. As you 
know, first off we are great partners with Army and there is no 
way we can do this without the S&T efforts. We think that is 
critical in how we go forward in the future in that investment. 
We all share the benefits of that and we look forward to 
continuing that partnership.
    On the aircraft that are in the field, we do have systems 
already to counter many of the threats that we regularly update 
on MODS [modifications], and put software and new hardware in 
to keep it. But the threat has evolved and it has changed. We 
are taking steps to change what we have on the CV-22 with a 
limited number right now. We are going to see how that 
performs. And we are also doing that on the HH-60.
    What we are focused on are countermeasures dispensing 
capabilities and active infrared countermeasure systems in 
response to things that I will not go into a whole lot more 
detail. We have active programs in both of those. We are going 
to field on limited numbers of those platforms, and then we 
will field those on the remainder of the platforms in the 
future.
    General Williamson. Sir, I just wanted to highlight another 
point, and that goes back to something that General Lundy said 
about the ability to get ahead of the threat. So you and I had 
a conversation about cyber as an example, and so what concerns 
me is people who think about it being a point solution, this is 
something that, as the enemy learns, they will adapt. And so it 
is really important for us to have programs that not only deal 
with the current threat, but are also projecting out. I think 
that is critical for us as we move forward.
    Mr. Turner. Thank you for the responses.
    General Williamson and General Lundy, as I mentioned in my 
opening statement, I would like to see comment on the status of 
the Army's aviation restructuring initiative, or ARI, and hear 
your views on the recommendation put forward by the National 
Commission on the Future of the Army regarding ARI.
    In addition to this I would like to get a better 
understanding of the unfunded requirements associated with ARI 
and the Commission's recommendation. Given that we are 
operating under constrained budgets and that Army aviation has 
already been reduced in the President's budget request, if the 
Army were to adopt the Commission's recommendations, what would 
be your most pressing requirements in fiscal year 2017, and 
what are your must-haves?
    General Lundy. Sir, as you well know, the report from the 
National Commission came with over 60 recommendations without 
resources. So certainly many of those recommendations, as the 
Chief has testified to, are absolutely--they are great ideas 
but the resources are the challenge we have to look at.
    Currently they are being assessed by the Chief of Staff of 
the Army, the Secretary of the Army, on the decisions they are 
going to make as we go forward.
    If we were to look at the specific aviation recommendations 
that are in there to retain an 11th CAB [combat aviation 
brigade] in Korea, as well as the four AH-64 battalions, our 
assessment right now is that is about a $2.4 billion bill that 
would come back into the Army, would require, you know, a 
Department of Defense solution or additional funding from 
Congress.
    With that $2.4 billion, there are lots of options on how we 
would go about doing that, but certainly if it came back into 
the aviation portfolio, it would have a huge impact, which is 
one of the reasons why really we did ARI. And as I testified 
last year on ARI, if we had the resources, we wouldn't be doing 
ARI.
    So again, we are kind of back at square one in some 
respects. But I know the Army is going to take a serious look 
at that. I know the Chief has been very actively involved in 
that, and we will see he will make some decisions here shortly. 
And then we will make a determination on, you know, whether we 
resource that internally or not.
    If we were to execute, there would be some immediate 
demands obviously for long-lead purchases, for AH-64s, as well 
as training aircraft for the training base. If we were to add 
the 11th CAB and the four AH-64 battalions, that would increase 
our demand in the training base, so we would need more LUH 
[light utility helicopters], and we would also have to add AH-
64s to the inventory. That would be probably the two most 
pressing needs that I would see if we were to do those.
    Mr. Turner. On my last question. I would like General Bunch 
and Holmes, if you would, to respond to the issue concerning 
STRATCOM and Secretary James' concern that we might not meet 
the alert requirement while replacing legacy rotorcraft.
    Is it correct that, aside from the fact that we have the 
security of nuclear weapons in the United States, we are also 
talking about the expense of mitigations, including mitigations 
in place to meet the convoy escort mission, including 
additional defenders, as well as a potential request for forces 
to provide Army National Guard Black Hawks at all ICBM wings?
    How much does all this cost? Does the Air Force expect new 
helicopters? What would you be able to save? What are your 
thoughts on that topic?
    General Holmes. Thank you, Mr. Chairman. So over the last 
couple of years as we have done a review of our entire nuclear 
enterprise, one of the areas we looked at is this mission that 
supports the security of nuclear weapons on the missile fields.
    As you pointed out in your opening statement, sir, we have 
been doing it with the legacy helicopter, the UH-1, for several 
years and our update program has been delayed by the budget 
turmoil with the Budget Control Act and the decrease in buying 
power that happened there.
    In the short term we have taken some mitigation steps, and 
General Robin Rand, our four-star commander of Air Force Global 
Strike Command, has been personally involved in doing some 
things to support really both our ability to meet both of those 
missions better on the missile field, both the convoy escort 
and then the response mission.
    The mitigations include things like having forward area 
refueling points that give you more time on station, that allow 
you to go for a further range and stay out there more, and some 
other things I won't go into for security reasons.
    We are looking at the full range of mitigations to address 
that until we can field the new helicopter, and we recognize 
Admiral Haney's view that it is critical that we move forward 
now. We agree. One of the things that the BBA was able to do 
for us was to give us a little bit of that buying power back 
that we can apply to a new helicopter program.
    We have the money laid out in this FYDP [Future Years 
Defense Program] to be able to do that. And then to accomplish 
it, you know, General Bunch and our AQ [acquisition] guys are 
working on strategy for what is the fastest and best way to 
make sure we get the right helicopter out there into the 
missile fields, in the shortest timeline that we can.
    General Bunch. Sir, I think it is important to start off 
with the UH-1 end is just one part of a multilayered defense of 
our nuclear resources, and our nuclear deterrent force remains 
safe, secure, effective, and ready if needed.
    We have taken steps, as General Holmes relayed, to mitigate 
the things, but there are still areas that we can't address the 
full requirement. The Secretary of the Air Force has directed 
us to lean forward and consider more aggressive steps to see 
how we can go faster.
    We have requested the requirements, notes, and urgencies 
from Admiral Haney and others. Those notes--those memos, I 
shouldn't say notes, are going to come in with the urgency of 
that requirement and we are going to lay that out to see if we 
have enough information there to be able to do an Economy Act 
determination and findings, and make that determination to go 
forward.
    We should be making that decision within the next month to 
start those actions, to see if we want to go forward and do 
that in a more timely manner. And the other piece we have to 
remember in this, it is not just getting iron on the ramp. It 
is everything else that goes with it that we are trying to 
focus on as well.
    So we are leaning forward. We think we will have an answer 
within the next month or so, on whether we are going to go that 
direction.
    Mr. Turner. Just to underscore, we have no margin of error 
here, so we look forward to your recommendations and success.
    Congresswoman Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I want to go back to 
the question that you--or the subject matter that we are 
talking about here because the budget request shows a clear 
path to finally getting at the requirement with the competition 
that would pick a winner in fiscal year 2018 and deliver--start 
delivering the helicopters in 2020. Am I correct? That is the 
way I read it, at least when I took a look.
    General Bunch. Ma'am, that is correct, and when we would 
have the competition resolved, who the winner of that, may 
determine exactly when do we get to the field. That is all part 
of the acquisition strategy we are developing at this time, 
ma'am.
    Ms. Sanchez. So I know that the Air Force has been 
pressured by some Members of Congress to skip the competition 
and to give it as a sole-source contract to one company. So I 
understand that could speed up the program a bit, but it 
doesn't appear to me to meet any of the normal tests for a 
noncompetitive contract award.
    In this case it seems to me like that contract could be 
close to about a billion dollars of work. So my questions are, 
how many potential competitors does the Air Force think it 
might get if this was done on a competitive program?
    And as far as the requirement goes, has the Joint Staff 
approved this as urgent need, and how do you define that urgent 
need? Is it something like what we saw for our troops who were 
in Afghanistan and Iraq?
    And if the Air Force does go to a sole-source contract, 
what would be the justification, and how big a sole-source 
contract are we talking about?
    General Bunch. Okay, Ma'am, let me step through those, and 
if I miss one I will let you re-attack me on the ones that I 
may have missed as you went through that.
    Ms. Sanchez. I was trying to figure out how to make a 
billion dollars competitive.
    General Bunch. I understand. First off, we have not made a 
determination that we are going to go this way. We still have 
to get the requirement documents in to outline to us the 
urgency before we would make that decision. That decision has 
not been made. That is something we will do over the next few 
weeks to a month.
    The number that we are talking about to try to do this 
would be focused solely on the helicopters that would be needed 
to support the nuclear mission, and right now that number is 
41. That number is being reviewed by General Holmes and his 
team, but right now that number is 41 that we would look to do 
that. Economy Act, the D&F [determination and findings], if we 
determine the urgency is there.
    Ms. Sanchez. Forty-one?
    General Bunch. Forty-one helicopters. We would not do it 
for the remainder of the fleet. It would only be focused on 
those, ma'am, that----
    Ms. Sanchez. Given the ballpark of 41 helicopters, how big 
a wallet do I have to go to shop for 41 helicopters?
    General Bunch. It would be in the $800, $900 million dollar 
range, ma'am.<dagger>
---------------------------------------------------------------------------
    <dagger> Lieutenant General Bunch specified post hearing: The cost 
to procure 41 HH-60 helicopters using the Economy Act is $1.4B.
---------------------------------------------------------------------------
    Right now as we get our market research, ma'am, to set this 
up for a competition, we think there are about five folks who 
have expressed interest as we have done our market research and 
we get ready to set up the competition as we build our 
acquisition strategy.
    So that is part of the determination we are weighing out 
is, how urgent is the requirement, what is that requirement, 
and is there a need--is the urgency of the requirement, does it 
merit us using the Economy Act D&F and delaying, or wait for 
the competition. That is the decision we have to make.
    Ms. Sanchez. Okay. So you are saying that there is a 
possibility I would have to go to people and say, sure, we did 
a sole-source contract for $900 million?
    General Bunch. That is what we are going to look at, ma'am.
    Ms. Sanchez. I hope you look at it carefully and figure out 
a way to make a competitive process of it rather than just 
handing out contracts like that.
    General Bunch. Yes, ma'am.
    Ms. Sanchez. Let's go back to, and I hate to be provincial, 
but I am going to go back to my California helicopters for a 
moment, Mr. Chairman.
    Having enough Black Hawk helicopters for the National Guard 
I think is crucial. So how would the loss of 36 new helicopters 
over 2 years affect the Army's plans to upgrade all the 
National Guard existing helicopters by 2023, General?
    General Williamson. So, ma'am, I will start from a 
programmatic impact and then operationally I will ask General 
Lundy to step in. So as you well know, we only produce N number 
of helicopters a year, so the loss of 36, and having to add 
that back in programmatically would be significant.
    Ms. Sanchez. What does that mean, programmatically? I hope, 
Major General, you are going to----
    General Lundy. Yes, ma'am. So as we look at California, and 
I will talk about----
    Ms. Sanchez. I don't want to be so provincial. California 
is a big State, however. I will say that. We need those 
helicopters because that is one of the ways we cover some of 
the ground we have.
    General Lundy. We will talk about kind of this total 
aviation force, what the impacts are. With respect to 
California, so we have one A model Black Hawk left in 
California to modernize, and it is going to get modernized in 
June. So we will have California fully modernized with L models 
by June.
    We have about 600, about 550 A model Black Hawks across the 
National Guard and the Active Components. It is about an even 
split between the two. We are still on track right now to 
finish modernizing the Guard in 2023, and we will modernize the 
Active Component in 2025. So we are a couple of years behind on 
finishing up all the Active Component Black Hawks.
    If we were to go in and enact some of the National 
Commission recommendations, that is really what is going to 
impact our ability to finish modernization as fast as we think 
we can. And that potentially could--some of the options might 
be that we slip some of that modernizing both the Guard and the 
Active Component in Black Hawks to the right 2 or 3 years. So 
that is some of the decisions we are going to have to make, as 
the Chief and Secretary of the Army consider the National 
Commission recommendations.
    But right now we are still on track. Even though we are 
buying less Mike model Black Hawks this year, we are still on 
track with the Victor model program, which is going to be the 
recapping of L models into a new fully integrated glass 
cockpit. That is going to be our newest Black Hawk.
    So I am comfortable right now that we are still on track 
for 2023 for the Guard and 2025 to 2026 for the Active 
Component.
    Ms. Sanchez. So going back to that ARI, if you were saying 
that it was about a $2.4 billion request or suggestion, or 
whatever we want to call it at this point, how much of that 
would be in 2017, and for what programs?
    General Lundy. On that, none of it is in 2017 because the 
decision has not been made for the National Commission 
recommendation. I know we have asked for--to set conditions for 
that if we make that decision. I know we have asked for some 
additional advance procurement on, you know, AH-64s that would 
help us set the conditions for that decision.
    But we are not using any--we have not adjusted our budget 
at all this year in 2017 to accommodate for the National 
Commission recommendations.
    Ms. Sanchez. So if we adjusted the Army and let's say you 
took the ARI suggestion and it started to be covered in fiscal 
year 2018 and beyond, what gets cut? I mean, aside from the 2- 
or 3-year push that you talked about with respect to the Black 
Hawk, what do we have to give up that we think right now we are 
going to get?
    General Lundy. There are a lot of options, and we are going 
to present all those options to the Chief. I mean, if it is 
internal to the aviation portfolio, there will certainly be a 
further slowing down of modernization. So, you know, pushing 
modernization efforts farther to the right, dependent upon 
which--where he wanted to take risk at, and which aircraft, and 
which capabilities would dictate that.
    Or if it became an all, a total Army solution or a solution 
at the Department level, or if we receive additional funding. 
So it is kind of hard to say what exactly would be impacted, 
but if it comes back into the portfolio, $2.4 billion is a huge 
hit in the portfolio over the FYDP, so it would be very 
significant.
    Ms. Sanchez. Well, I think I am going to have a lot more 
questions on that for the record. I don't want to take up 
everybody's time, but that is a big issue here. So thank you 
very much.
    Mr. Turner. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    General Lundy, can you tell me a little bit about using 
guided rockets in combat, and the effectiveness between 
unguided and guided and implementation of either?
    General Lundy. Yes, sir. You know, the guided rockets have 
recently really proven to be very effective. We are modifying 
our lethality strategy to bring more guided rocket capability 
in. A guided rocket is less expensive than some of our 
missiles, and for certain targets they are appropriate. So we 
get a better cost curve, I guess you would say. And it allows 
us to service different kinds of targets. So guided rockets are 
definitely a part of our strategy.
    We are reducing the amount of unguided rockets that we 
previously shot for mostly suppression because of the lethality 
and improvements in the guided rocket field. So we certainly 
see a path ahead. We have a current program of record, it is a 
Navy program of record that we are using called APKWS [Advanced 
Precision Kill Weapon System].
    We have an S&T effort right now with our S&T team, AMRDEC 
[Aviation and Missile Research, Development, and Engineering 
Center], that is the modular missile system. It is a modular, 
can be a guided rocket, can be a missile, can be air-to-air. It 
is a modular capability or it can be a drop glide that we can 
drop off of unmanned systems. That is our future program of 
record that we are going to transition to. It has got good 
stable funding right now, so I am confident we will continue 
down that path. But that is currently how we are using guided 
rockets in our portfolio.
    Dr. Wenstrup. In our current engagements, say in Iraq and 
Afghanistan, do rules of engagement come into play as far as 
which one you can use?
    General Lundy. Guided rockets are definitely what we want 
to use, precision capabilities, when we have tight rules of 
engagement and you have potential for collateral damage. And a 
guided rocket has less collateral damage potentially than some 
of our missiles, some of our larger weapons, so they have got 
less blast and they are more accurate. So those are certainly 
the kind of munitions that we want to use in and around urban 
areas or areas where we are concerned about collateral damage, 
so, yes, sir.
    Dr. Wenstrup. Thank you, General.
    I yield back.
    General Lundy. Thank you, sir.
    Mr. Turner. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you about the divesting of the Kiowa 
Warriors, particularly to General Williamson or General Lundy. 
Do you feel that the Army will be able to fulfill some of the 
missions that may be foreseeable in the future?
    Like for instance trying to prevent the spread of terrorism 
in sub-Saharan Africa by divesting of a helicopter that is very 
proven when it comes to reconnaissance and scouting in a 
terrain where you will need it to do just that? And it can 
probably perform that capability better than the helicopter 
that we are keeping. Can you kind of just touch on that a 
little bit?
    General Lundy. Well, sir, I would tell you, we have done 
some pretty extensive study. I am a Kiowa Warrior aviator, been 
flying them my entire life. I have flown every model and 
version of them, and unfortunately as the branch chief I am the 
one that is taking them out of the inventory.
    It is a great aircraft. It has tremendous capabilities and 
has proven itself in combat. I have got lots of combat time in 
58s. I have also got time in Apaches and I have seen what 
Apaches can do with unmanned systems.
    Currently right now the AH-64 can meet a broader range of 
missions, especially teamed with unmanned systems. But we still 
have a requirement for a scout, and we are pursuing a scout 
requirement as we move forward.
    Again, it is much like all of the other tough decisions 
that we have to make. We have a budget, and I certainly would 
like to be buying a scout tomorrow, but we are looking at a 
strategy on how we can proceed forward within the budget 
constraints that we have.
    But there is definitely a viable mission there. The 
requirement is still viable, but we have a viable solution to 
bridge that gap until we can get to, and we see it probably 
coming with future vertical lift. That family of systems is 
when we will see a scout aircraft come back into the inventory.
    Industry is doing a lot of work right now. There is a lot 
of IRAD [independent research and development] that we are very 
interested in, so it may be able to come earlier, if there is 
something we can procure commercially off-the-shelf and the 
budget suggests a little bit. So there are a lot of options 
that we are exploring. But the mission is still viable, the 
requirement is still viable.
    Mr. Veasey. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Turner. Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here. General Williamson, good 
to see you again.
    General Lundy, I had a follow-up question to Representative 
Wenstrup on the issue of guided rockets and not guided rockets. 
My follow-up question quickly was, can you just comment on how 
the Army plans to implement enhanced warhead technology that is 
capable of neutralizing a wider spectrum of targets, such as 
light and up-armored vehicles, bunkers, and structures?
    And I have another question.
    General Lundy. Yes, ma'am. We have a couple of initiatives 
going on right now. As a matter of fact, we were just doing 
some test shots this week, where we are developing some 
particular fusing capabilities that allow for delayed reaction 
so they perform better against bunkers.
    We have also tested some of the other commercial systems 
that are out there, and as a part of our lethality strategy we 
are not only looking to improve the warheads that we have on 
our rockets, but we are also looking at improving our missile 
performance because there are some advanced targets that are 
out there now and some of our great power competitors that we 
have got to be able to deal with in the future.
    So certainly looking at improved warheads is a part of our 
lethality strategy, and the Vice Chief of Staff of the Army 2 
weeks ago approved our way ahead on that. So we do have a 
pretty solid path moving forward.
    Mrs. Walorski. Thanks. I appreciate it. I just, General, 
have another follow-up question. Chairman Turner alluded to 
this, that regarding the ever-present friction of modernizing 
the existing inventory while preparing for the future, not 
denying that our aircraft and soldiers who fly and maintain 
have done exceptionally well over the past 15 years of nearly 
constant deployments, but we have to continue looking to the 
future.
    So I am concerned that this year's budget forces Army 
aviation to the bill payer for too many other programs that 
does not adequately prioritize future Army aviation programs.
    Where are we assuming the most risk in terms of modernizing 
our fleet of Army aviation?
    General Lundy. Yes, ma'am, I think as the Chief has looked 
at readiness as being the number one priority, and I absolutely 
agree with that because readiness for the aviation force is not 
just buying platforms. It really is to make sure that our 
aircrews are trained and ready to go out there and fight.
    And we have for the last, you know, 12 to 14 years we have 
been fighting a different kind of fight than we potentially are 
going to fight in the future. And it has been very team 
centered for us. As we move into potentially facing more 
advanced threats that are out there at the higher end of 
combat, we have got to be able to fight collectively at the 
company, troop, battalion, squadron, brigade level. This is not 
something we have been doing for 14, 15 years.
    So as we look at taking some of this risk, I think it was 
very evident why we needed to do it, is to make sure--the thing 
that is most important, the combat power that we have when--we 
equip soldiers, and those soldiers have to be able to fight. 
They are the weapon system. So I think the trades that we have 
had to make are important trades, to get after training and 
leader development, while still maintaining very important 
modernization capabilities.
    With respect to that, where I think we have the most risk 
again, is just the pace that we are modernizing. And I mean, 
that is always our great challenge is aviation is very 
expensive. And I mean, we are the most expensive part of the 
Army's portfolio.
    So as we look at, you know, we can only really afford to 
field two battalions of AH-64Bs a year, a couple of battalions 
of UH-60s. So that brings capability very slowly into the 
force.
    So when you look across our 23 brigades, across the total 
aviation force, only 2 of them are fully modernized with all of 
their battalions, all of their equipment, and we are slowly 
modernizing each one of those. And they are all in various 
states. We have some that are modernized on Apaches, but not 
Black Hawks.
    It is the pace, I think as we are, you know, we are taking 
the most risk. But again, I think we have to focus very heavily 
on the readiness piece, and I think it is important for us to 
take that risk, to make sure that our crews can fly and fight, 
first and foremost.
    Mrs. Walorski. I appreciate that.
    General Lundy. Yes, ma'am.
    General Williamson. So, ma'am, I would just like to add to 
that, the pace. So this goes back to this notion of the agility 
that the Chief looks for. So when you take that pace, and if 
you use the example that General Lundy just used, if you are 
only doing 2 to 3 units a year, and you have 23, it becomes 
simple math. It will take me 10 years before I have everyone at 
the same capability.
    And so now you are not only forced to talk about what unit 
I send, but also understand what capability they have against 
the threat for that region or that environment. And so pace 
becomes very important. And we are having the discussion 
focused on aviation today, but we are making those kinds of 
choices within all of our portfolios, and we have stretched out 
modernization.
    And so as we are incorporating what was the technology of 
the day, that year, I now have to figure out how to introduce 
the next technology or deal with the next threat. So every time 
we expand this, we make it complicated.
    And then it also adds the factor associated with 
interoperability, and so we have to make sure that we are 
always interoperable backwards because it is taking me so long 
to field those systems.
    Mrs. Walorski. I appreciate it. Thank you, gentlemen.
    And I yield back. Thanks, Mr. Chairman.
    Mr. Turner. Ms. Graham.
    Ms. Graham. Don't worry, I can think on my feet. Thank you, 
Mr. Chairman. I appreciate it. Thank you, gentlemen.
    Have we talked about the future vertical lift program in 
our discussion here? If you all would discuss where we are with 
that right now, I would appreciate it. Thank you.
    General Lundy. Yes, ma'am. Future vertical lift is a joint 
program. The Army has the lead for the joint force, but I will 
tell you that we are working very closely with all of our joint 
partners. We are going through a milestone decision, or an MDD 
[materiel development decision], this year, so it is on track.
    We have the joint multi-role tech demonstrator, which is 
the S&T effort that supports it, and it is going to start 
flying in 2017, and there's two competitors that are flying 
those vehicles. That is going to help inform our requirements. 
So the program is on track.
    But we are looking really as we, from a timing perspective, 
we will start seeing kind of low-rate production on the 
aircraft, the first capability set that we bring in in the late 
2020s, early 2030s. And we will see really going to full 
operational capability in the early 2030s. That is when we will 
see the first units fielded.
    Ms. Graham. Is that jointly with the Air Force? Are you all 
pursuing that as well?
    General Bunch. We are teamed with them, ma'am, and we are 
watching them. We are collaborating.
    Ms. Graham. Okay. And this is to allow this one hovercraft 
to do--perform multiple responsibilities? What is the objective 
of----
    General Lundy. Well, really, when you look at future 
vertical lift, it is going to give us better speed, 
significantly better speed, significantly better range, 
significantly better maneuverability in the objective area, 
which improves survivability, improves our operational reach, 
strategic reach, ability to self-deploy. So those are the 
capabilities that it is going to bring.
    But there will not just be one aircraft type. There are 
five different capability sets that we look at for the 
different missions. We have a light variant, which will do 
things like scouting and some of the special operation 
missions. We have a lower end, medium variant which the Navy is 
very interested in. It is going to do anti-submarine work, 
things like that.
    The Marine Corps and us are very interested in kind of the 
middle assault variant, which will be a multi-role aircraft 
that can do things the Marines want to do and things we will 
want to do. And then there are some heavier variants out there 
that will replace our cargo aircraft.
    So there is a number of variants, but really the intent is 
to go into a family of vehicles that have a common 
architecture, that have common cockpits, things like that. They 
may not look exactly the same behind the cockpit, but there 
will be a lot of commonality to reduce costs, and also reduce 
training costs. That is kind of the broad overview of the 
program.
    Ms. Graham. So it is sort of like the F-35 approach, one 
sort of base aircraft and then make it different for----
    General Lundy. It will be somewhat different from the F-35 
approach. There will be some very different variants because 
just of the size differentials. Now inside those different 
capability sets there will be some multi-roles. So like 
capability set 3, which is what the Army is calling the assault 
variant. What the Marine Corps is looking at is their assault 
and attack variant. That would be a common airframe, will look 
the same, but is going to have different mission equipment 
package on it.
    But then when you go down on the lower end, the smaller 
aircraft, what SOCOM ends up needing may be different than our 
scout variant. We are still looking through those, and we will 
see what industry is able to produce and what the technology 
shows us.
    But we are going to get as much commonality as we can, but 
we are also not going to sub-optimize an aircraft to try to do 
a bunch of missions and end up with, you know, some missions 
not done very well and other missions done very well. So we are 
looking very closely at that and doing commonality in other 
areas that will give us the savings.
    Ms. Graham. General Williamson, did you have anything?
    General Williamson. Yes, ma'am. I just want to make sure 
that we are clear in terms of so at the component level you 
might see things like a common engine across a couple of the 
different variants, so it is not about making the same 
platform. It is about looking for where there are areas that we 
can share across the joint force. Some of that could be some of 
the avionics. Some of it is in taking advantage of technologies 
and using those on each of the platforms. But it is not about 
building one single platform.
    Ms. Graham. Well, thank you. I appreciate you all's 
answers, as always. Thank you so much.
    I yield back any time I might have left. Thank you, Mr. 
Chairman.
    Mr. Turner. The last question series, Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman, and appreciate the 
panelists. Thank you for your leadership, your service, and the 
sacrifices you have rendered, and your families.
    So I am late coming here, so if these questions have 
already been asked, I apologize, but I do have two. The first 
has to do with the Commission's recommendation for the four 
Apache battalions. I am interested to know the perspective of 
the Army on that recommendation. And also how do we balance 
that with of course the need for the modernization of the UH-
60, both Active and Reserve Component? So that is really the 
first question on the Commission, the Apaches and UH-60s.
    And the second one may be a little bit out of your current 
set of responsibilities. But in your best military judgment I 
am interested, as professional aviators how do you perceive the 
European Reassurance Initiative from the vantage point of 
aviation? What concerns, challenges, and anything you would 
recommend for us to know about?
    I think it is a very important initiative and I just want 
to make sure that we are taking into consideration, and if the 
Air Force wants to take a shot at that one too, that would be 
great. We will start with the Army.
    General Lundy. Well, sir, good seeing you again. I did talk 
earlier about the NCFA recommendations and where we are at on 
the AH-64s. As I talked last year with respect to ARI, you 
know, if we had the right funding, I would want to have kept 
all that force structure.
    I think, you know, the Chief is looking at that, the 
Secretary of the Army are looking right now. We are providing 
recommendations and analysis for them. I think they are going 
to make some decisions on where the Army is going to go with 
respect to the National Commission in the upcoming months.
    If decisions are made--I mean, right now the assessment is 
about $2.4 billion just for the decision to keep the 11th CAB 
and the four 18-ship AH-64 battalions in the National Guard. So 
that is the bill that we are facing out there. Then there will 
be a part of the recommendations that we make on how we pay 
that bill. If it comes out of the aviation portfolio, it is 
going to have significant impacts, as I discussed last year on 
why we had to go to ARI.
    Obviously if it goes up to the Army level, it is going to 
have impacts on other Army programs, and we are already 
scrambling right now for money. So there will be a significant 
bill with it, and a significant impact somewhere.
    Mr. Gibson. Can I just get a clarification. The $2.4 B 
[billion], is that over 10 years, or what is that?
    General Lundy. It depends on how we approach it. It is 
really going to be over kind of the FYDP is about the way it is 
going to work out. And that will put the appropriate amount of 
AH-64s that we need. It will be able to re-cap those 64s 
because were going to have to add to the top line of AH-64, or 
add to the acquisition objective.
    It will also put some training aircraft back into Fort 
Rucker that we will need because we will have more units to 
train, so we got to increase the training base. And that is 
really only on the equipping side of the house. There is also 
an OMA [Operations and Maintenance, Army] bill that is about we 
think probably a little bit less than $200 million a year, I 
think is what the latest number is.
    So that really would be over about a 5- to 6-year period. 
But again, it could be spread out as well, but depending upon 
how we approach the strategy.
    With respect to the European initiative, I was over in 
Europe in January looking at what Army aviation is doing there. 
I'll tell you, a lot of challenges in the theater. Currently 
Army aviation, we have got a battalion task force over there on 
rotational. They have a company that is currently in Romania. 
They have got one up in Latvia. There is 600 miles difference 
between where their company is and where their battalion 
headquarters is, so it presents some real challenges.
    Is a great opportunity for a young captain, I will tell 
you, truly exercising mission command, and representing our 
Nation very well. I mean, frankly, is pretty impressive. So, 
one, they are doing a great job. But it is a tough mission. It 
is a very challenging mission. It is tough to sustain.
    I know General Hodges has expressed concerns about not 
having adequate aviation over there, and certainly the Army is 
looking at that, and there has been a request that has come up 
through the Joint Staff for additional aviation over there.
    Looking at the distances, the number of countries that they 
operate in, there is definitely a requirement. There is 
definitely a demand for increased Army aviation, and I think 
the rotational concept is a great concept for us to do that. It 
builds proficiency in our force, and I think that is the 
direction we are headed. And look forward to going back and 
visiting more aviation over there in Europe.
    General Holmes. Congressman Gibson, thanks for that 
question. For us, the European Reassurance Initiative does 
three main things. It funds the F-15C squadron at Lakenheath 
that had been planned to be brought home, and that is the EUCOM 
[European Command] commander's only air-to-air resource and his 
only air-to-air training tool that he can use to train with our 
European allies and reassure them.
    It funds exercises and training for us to bring stateside 
units over to trade with our European partners there, and then 
it funds some improvements to European airfields that let us 
bring those airplanes in there. So things like arresting gear, 
and taxiway condition, and the things that make it possible for 
us to get in there.
    So it's a shot in the arm. It helps us do the things that 
we need to do in support of the EUCOM commander.
    Mr. Gibson. I agree with that assessment. Any concerns that 
you want to address on that right now as that is developing?
    General Lundy. As regards to our support to the EUCOM 
commander?
    Mr. Gibson. Yes.
    General Lundy. Well, you know, the EUCOM commander and his 
air assets are in a tough position because we use them to 
rotate and support requirements all over the world, and then he 
has got a growing requirement.
    So those units that we keep there rotate to do their share 
in the Middle East conflict, and when they are not there, they 
are the forces that you turn to things like strike targets in 
Libya or do those things on short notice.
    So I am sure he would like to do more. As we revisit that 
balance, the first step was to leave that F-15 squadron that we 
had actually planned to retire those assets, but we are able to 
keep them and keep them in the right place.
    Mr. Gibson. Okay. Very well. Thank you, gentlemen.
    Thank you.
    Mr. Turner. General, thank you for your comments. During 
these times of restraint and difficult budgets, your management 
skills are absolutely incredibly crucial, but also the 
information you provide to us so that we can continue to 
advocate for additional resources is incredibly important. 
Without your narrative and expertise, that advocacy would be 
certainly hampered. So thank you for your honesty and for your 
management skills.
    Thank you. We will be adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 16, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. I understand the Army is divesting legacy TH-67 
training helicopters and the OH-58 Kiowa Warrior reconnaissance scout 
helicopters. What impact is this divestment having on the industrial 
base, and would you please provide more details on how you are 
considering Foreign Military Sales to help mitigate impacts?
    General Williamson. The Army tasked the Aviation and Missile 
Research, Development, and Engineering Center (AMRDEC) Industrial Base 
Group to assess the potential impact of the divestment of TH-67 and OH-
58 with the task of analyzing the impact on the lightweight single 
engine (LSE) rotary wing industry sector. The AMRDEC analysis found no 
adverse impact to the LSE industrial base resulting from the Army's 
planned divestiture of OH-58 variants and TH-67 aircraft. The Army's 
ongoing strategy has been to support the execution of Aviation 
Restructure Initiative while minimizing cost to the United States 
taxpayer, supporting industry partners, and Building Partnership 
Capacity through Foreign Military Sales (FMS). The Army is only making 
OH-58D Kiowa Warriors available to partner nations through FMS. The 
first OH-58D FMS case was signed with Croatia for 16 aircraft in 
February, 2016. Additional FMS cases with Greece, Tunisia and Austria 
are in various stages of negotiations. Project Manager Armed Scout 
Helicopter will deliver 30 TH-67 aircraft in Fiscal Year 2016 (FY16) to 
the Regional Helicopter Training Center (RHTC) in Colombia to support 
the US Southern Command (SOUTHCOM) and Department of Justice (DOJ) 
counter-narcotics mission. An additional 30 TH-67 aircraft are 
scheduled for delivery in FY17, bringing the total quantity to 60 TH-
67s. The Army will continue to explore FMS opportunities for both OH-
58D and TH-67 aircraft to mitigate impacts on the lightweight single 
engine industrial base.
    Mr. Turner. The National Commission on the Future of the Army 
recommended that the Army retain four Apache battalions in the National 
Guard. What's the Army's position on the Commission's recommendation?
    General Williamson. The Army's position on the National 
Commission's recommendation to retain four battalions of Apaches with 
18 aircraft in each battalion will be provided to Congress as part of 
the Army's initial assessment of the National Commission's 
recommendations. The National Commission also recommended retention of 
an 11th Combat Aviation Brigade (CAB) in the Regular Army, as well as 
the forward stationing of a CAB in Korea. The Army's initial assessment 
will address these aviation-related recommendations from a holistic 
perspective.
    Mr. Turner. In light of the three recent aircraft accidents in Army 
Aviation, what do you believe is leading to these incidents and is 
there a technology solution to help prevent them from occurring in the 
future? If so, what we can do to help accelerate the development and 
integration of this technology on existing platforms?
    General Williamson. Human error remains the primary cause of Army 
Aviation mishaps. Between March 2014 and March 2016, materiel failure 
was the primary cause in 3 (11 percent) of 27 Class A Army Aviation 
flight accidents and 22 (81.5 percent) were the result of human error. 
Additionally, one was the result of a weather phenomenon and another 
remains under investigation at this time. Historically, 80 percent of 
aviation accidents are caused by human error. The CSA directed a 
Holistic Review of Army Aviation. Among other topics, this team is 
examining aviation training strategy, funding, execution and 
assessment. Programmed technology solutions will help mitigate risk of 
future aviation accidents. Degraded Visual Environment (DVE) conditions 
account for roughly 25 percent of rotary wing mishaps. The Army is 
addressing this challenge by investing in technological solutions--such 
as the Brownout Rotorcraft Enhancement System (BORES) and modernization 
of flight controls and symbology--that will enable Army Aviation to 
operate in all environmental conditions. The Army is addressing 
insufficient aircraft power at high altitudes, high temperatures, and 
high payloads through the Improved Turbine Engine Program (ITEP), which 
will provide greater lift and capability to existing aircraft. The 
President's FY17 budget request includes $80.5 million for DVE programs 
and $126 million for ITEP. Both DVE and ITEP are projected to be 
integrated into planned Future Vertical Lift capability sets.
    Mr. Turner. What are your current acquisition strategies for 
aircraft survivability equipment? How can we help accelerate them?
    General Williamson. The rapid proliferation of advanced threat 
technologies increases the risk to the fleet. The Army requires an 
Aircraft Survivability Equipment (ASE) suite to defeat these emerging 
threats.
    The Army's acquisition strategy includes a number of modernization 
and development ASE programs to address infrared, radar, laser, and 
hostile ground fire threats. The most critical priority is the 
development of a comprehensive ASE package to detect, declare, and 
defeat a wide range of emerging infrared man-portable air-defense 
system (MANPADS) threats. The Army's MANPADS threat strategy is divided 
into three temporal phases: (1) near-term (or now), (2) mid-term 
(Fiscal Year 2016-2023), and (3) long-term (Fiscal Year 2023 and 
beyond).
    a. In the near-term, the Army is updating the fielded Common 
Missile Warning System (CMWS) and Advanced Threat Infrared 
Countermeasure (ATIRCM) software algorithms to address these associated 
emerging threats. The Army is also working with other services to 
identify improved flare countermeasures. These enhancements will be 
integrated on all ASE-equipped Army aircraft.
    b. In the mid-term, the Army is developing the Common Infrared 
Countermeasures (CIRCM) program, for initial fielding in FY19. However, 
the Army is initially leveraging the Navy's Large Aircraft Infrared 
Countermeasure (DoN LAIRCM) for installation on a limited quantity of 
Apache, Blackhawk and Chinook helicopters deploying by FY17. For the 
subsequent deployment, the Army will modify the DoN LAIRCM detect 
sensor, and combined with a CIRCM Quick Reaction Capability (QRC), will 
provide a reduced size, weight, and power system. To accelerate the 
CIRCM QRC, the Army has submitted a request to reprogram $41.3 million 
to procure CIRCM QRC for the initial deployment aircraft addressed 
above. These funds are required by June 2016.
    c. The long-term strategy is a fleet-wide solution that accelerates 
development and fielding of an advanced missile warning system and 
continues the fielding of CIRCM. These two programs will replace CMWS 
and ATIRCM.
    Separate from the strategy to address the MANPADS threat, the Army 
is developing a Modernized Radar Warning Receiver (MRWR) to address 
radar-based threats.
    Mr. Turner. What are the operational impacts of slowing aviation 
modernization programs on the readiness of the force and the aviation 
modernization strategy?
    General Williamson. The operational impacts of slowing 
modernization programs are delayed divestment of less effective 
equipment and delayed fielding of advanced aircraft and capabilities to 
the operational force. The rate at which we field new capabilities has 
short and long term effects on the operational force and the aviation 
modernization strategy. As fielding timelines increase, the 
effectiveness of the new capability decreases. Specifically, divestment 
of the UH-60A from the ARNG would be delayed by 2 years from Fiscal 
Year 2023 (FY23) to FY25. UH-60M modernization in the Army would be 
delayed by 2 years from FY28 to FY30. Also, four key modifications to 
the CH-47F would be delayed by 5 years: cargo platform health 
environment; adjustable pitch change link; engine improvement; and 
simulation obsolescence.
    Mr. Turner. Please comment on the effectiveness of small guided 
rockets used by rotorcraft in combat and the role this technology will 
play in future combat operations.
    General Williamson. Small guided rockets, such as the Advanced 
Precision Kill Weapon System (APKWS II) in use by the U.S. Army, are 
effective against light skinned vehicles and troops in the open. 
Recently, the APKWS has proven extremely effective in engagements in 
current theaters of operation. These weapons provide the Army's Apache 
aircraft with a precision strike capability larger than the 30mm 
cannon, yet smaller and less expensive than the Hellfire missile. It 
also increases stowed kills--the number of precision weapons the Apache 
can carry without increasing platform payload weight. In the future, 
the Army will continue to develop technologies for small guided 
munitions that will provide greater lethality with increased efficiency 
by allowing Army aviators to employ the most appropriate munitions 
against a range of threats.
    Mr. Turner. Please comment on the Army's plan to implement warhead 
technology on small guided munitions used by rotorcraft that are 
capable of neutralizing a wider spectrum of targets such as light and 
up-armored vehicles, bunkers, and structures.
    General Williamson. The Army will field scalable and tailorable 
Aviation munitions and their associated equipment to improve precision 
and lethality. Currently, the Army is employing the Advanced Precision 
Kill Weapon System (APKWS), in support of a current operational need. 
To further enhance this capability, the Army is exploring the 
feasibility of expanding guided rocket capability through warhead 
modernization and ensuring capabilities are integrated on current 
manned and unmanned platforms.
    Additionally, research into precursor warheads for larger anti-tank 
munitions suggests their suitability for penetrating warheads for small 
guided munitions. A feasibility study of a small diameter penetrator 
coupled with a follow-through grenade also indicated suitability 
against personnel in urban structures, bunkers, and medium armor.
    Mr. Turner. What can the Congress do to accelerate the procurement 
of ICBM support helicopters in fiscal year 2017?
    General Bunch. The Air Force is refining the acquisition strategy 
for the UH-1N Replacement program. Until the program content, timing, 
and costs are finalized, we request that Congress support the fiscal 
year 2017 President's Budget request as submitted.
    Mr. Turner. We've recently read that the commander of Air Force 
Special Operations Command has indicated that three more CV-22s are 
required for attrition reserve aircraft. Does the Air Force plan to 
address this requirement in the Future Years Defense Program?
    General Bunch. Any future Air Force decision to procure additional 
CV-22 aircraft would be driven by a validated user requirement and 
subsequently added to future budgets. However, the Air Force CV-22 
fleet size requirement and program of record remains set at 50 
aircraft, with no additional requirements to increase that number at 
this time.
    Mr. Turner. What can the Congress do to accelerate the procurement 
of ICBM support helicopters in fiscal year 2017?
    General Holmes. The Air Force is refining the acquisition strategy 
for the UH-1N Replacement program. Until the program content, timing, 
and costs are finalized, we request that Congress support the fiscal 
year 2017 President's Budget request as submitted.
    Mr. Turner. We've recently read that the commander of Air Force 
Special Operations Command has indicated that three more CV-22s are 
required for attrition reserve aircraft. Does the Air Force plan to 
address this requirement in the Future Years Defense Program?
    General Holmes. Any future Air Force decision to procure additional 
CV-22 aircraft would be driven by a validated user requirement and 
subsequently added to future budgets. However, the Air Force CV-22 
fleet size requirement and program of record remains set at 50 
aircraft, with no additional requirements to increase that number at 
this time.
    Mr. Turner. I understand the Army is divesting legacy TH-67 
training helicopters and the OH-58 Kiowa Warrior reconnaissance scout 
helicopters. What impact is this divestment having on the industrial 
base, and would you please provide more details on how you are 
considering Foreign Military Sales to help mitigate impacts?
    General Lundy. The Army tasked the Aviation and Missile Research, 
Development, and Engineering Center (AMRDEC) Industrial Base Group to 
assess the potential impact of the divestment of TH-67 and OH-58 with 
the task of analyzing the impact on the lightweight single engine (LSE) 
rotary wing industry sector. The AMRDEC analysis found no adverse 
impact to the LSE industrial base resulting from the Army's planned 
divestiture of OH-58 variants and TH-67 aircraft. The Army's ongoing 
strategy has been to support the execution of Aviation Restructure 
Initiative while minimizing cost to the United States taxpayer, 
supporting industry partners, and Building Partnership Capacity through 
Foreign Military Sales (FMS). The Army is only making OH-58D Kiowa 
Warriors available to partner nations through FMS. The first OH-58D FMS 
case was signed with Croatia for 16 aircraft in February, 2016. 
Additional FMS cases with Greece, Tunisia and Austria are in various 
stages of negotiations. Project Manager Armed Scout Helicopter will 
deliver 30 TH-67 aircraft in Fiscal Year 2016 (FY16) to the Regional 
Helicopter Training Center (RHTC) in Colombia to support the US 
Southern Command (SOUTHCOM) and Department of Justice (DOJ) counter-
narcotics mission. An additional 30 TH-67 aircraft are scheduled for 
delivery in FY17, bringing the total quantity to 60 TH-67s. The Army 
will continue to explore FMS opportunities for both OH-58D and TH-67 
aircraft to mitigate impacts on the lightweight single engine 
industrial base.
    Mr. Turner. The National Commission on the Future of the Army 
recommended that the Army retain four Apache battalions in the National 
Guard. What's the Army's position on the Commission's recommendation?
    General Lundy. The Army's position on the National Commission's 
recommendation to retain four battalions of Apaches with 18 aircraft in 
each battalion will be provided to Congress as part of the Army's 
initial assessment of the National Commission's recommendations. The 
National Commission also recommended retention of an 11th Combat 
Aviation Brigade (CAB) in the Regular Army, as well as the forward 
stationing of a CAB in Korea. The Army's initial assessment will 
address these aviation-related recommendations from a holistic 
perspective.
    Mr. Turner. In light of the three recent aircraft accidents in Army 
Aviation, what do you believe is leading to these incidents and is 
there a technology solution to help prevent them from occurring in the 
future? If so, what we can do to help accelerate the development and 
integration of this technology on existing platforms?
    General Lundy. Human error remains the primary cause of Army 
Aviation mishaps. Between March 2014 and March 2016, materiel failure 
was the primary cause in 3 (11 percent) of 27 Class A Army Aviation 
flight accidents and 22 (81.5 percent) were the result of human error. 
Additionally, one was the result of a weather phenomenon and another 
remains under investigation at this time. Historically, 80 percent of 
aviation accidents are caused by human error. The CSA directed a 
Holistic Review of Army Aviation. Among other topics, this team is 
examining aviation training strategy, funding, execution and 
assessment. Programmed technology solutions will help mitigate risk of 
future aviation accidents. Degraded Visual Environment (DVE) conditions 
account for roughly 25 percent of rotary wing mishaps. The Army is 
addressing this challenge by investing in technological solutions--such 
as the Brownout Rotorcraft Enhancement System (BORES) and modernization 
of flight controls and symbology--that will enable Army Aviation to 
operate in all environmental conditions. The Army is addressing 
insufficient aircraft power at high altitudes, high temperatures, and 
high payloads through the Improved Turbine Engine Program (ITEP), which 
will provide greater lift and capability to existing aircraft. The 
President's FY17 budget request includes $80.5 million for DVE programs 
and $126 million for ITEP. Both DVE and ITEP are projected to be 
integrated into planned Future Vertical Lift capability sets.
    Mr. Turner. What are your current acquisition strategies for 
aircraft survivability equipment? How can we help accelerate them?
    General Lundy. The rapid proliferation of advanced threat 
technologies increases the risk to the fleet. The Army requires an 
Aircraft Survivability Equipment (ASE) suite to defeat these emerging 
threats.
    The Army's acquisition strategy includes a number of modernization 
and development ASE programs to address infrared, radar, laser, and 
hostile ground fire threats. The most critical priority is the 
development of a comprehensive ASE package to detect, declare, and 
defeat a wide range of emerging infrared man-portable air-defense 
system (MANPADS) threats. The Army's MANPADS threat strategy is divided 
into three temporal phases: (1) near-term (or now), (2) mid-term 
(Fiscal Year 2016-2023), and (3) long-term (Fiscal Year 2023 and 
beyond).
    a. In the near-term, the Army is updating the fielded Common 
Missile Warning System (CMWS) and Advanced Threat Infrared 
Countermeasure (ATIRCM) software algorithms to address these associated 
emerging threats. The Army is also working with other services to 
identify improved flare countermeasures. These enhancements will be 
integrated on all ASE-equipped Army aircraft.
    b. In the mid-term, the Army is developing the Common Infrared 
Countermeasures (CIRCM) program, for initial fielding in FY19. However, 
the Army is initially leveraging the Navy's Large Aircraft Infrared 
Countermeasure (DoN LAIRCM) for installation on a limited quantity of 
Apache, Blackhawk and Chinook helicopters deploying by FY17. For the 
subsequent deployment, the Army will modify the DoN LAIRCM detect 
sensor, and combined with a CIRCM Quick Reaction Capability (QRC), will 
provide a reduced size, weight, and power system. To accelerate the 
CIRCM QRC, the Army has submitted a request to reprogram $41.3 million 
to procure CIRCM QRC for the initial deployment aircraft addressed 
above. These funds are required by June 2016.
    c. The long-term strategy is a fleet-wide solution that accelerates 
development and fielding of an advanced missile warning system and 
continues the fielding of CIRCM. These two programs will replace CMWS 
and ATIRCM.
    Separate from the strategy to address the MANPADS threat, the Army 
is developing a Modernized Radar Warning Receiver (MRWR) to address 
radar-based threats.
    Mr. Turner. What are the operational impacts of slowing aviation 
modernization programs on the readiness of the force and the aviation 
modernization strategy?
    General Lundy. The operational impacts of slowing modernization 
programs are delayed divestment of less effective equipment and delayed 
fielding of advanced aircraft and capabilities to the operational 
force. The rate at which we field new capabilities has short and long 
term effects on the operational force and the aviation modernization 
strategy. As fielding timelines increase, the effectiveness of the new 
capability decreases. Specifically, divestment of the UH-60A from the 
ARNG would be delayed by 2 years from Fiscal Year 2023 (FY23) to FY25. 
UH-60M modernization in the Army would be delayed by 2 years from FY28 
to FY30. Also, four key modifications to the CH-47F would be delayed by 
5 years: cargo platform health environment; adjustable pitch change 
link; engine improvement; and simulation obsolescence.
    Mr. Turner. Please comment on the effectiveness of small guided 
rockets used by rotorcraft in combat and the role this technology will 
play in future combat operations.
    General Lundy. Small guided rockets, such as the Advanced Precision 
Kill Weapon System (APKWS II) in use by the U.S. Army, are effective 
against light skinned vehicles and troops in the open. Recently, the 
APKWS has proven extremely effective in engagements in current theaters 
of operation. These weapons provide the Army's Apache aircraft with a 
precision strike capability larger than the 30mm cannon, yet smaller 
and less expensive than the Hellfire missile. It also increases stowed 
kills--the number of precision weapons the Apache can carry without 
increasing platform payload weight. In the future, the Army will 
continue to develop technologies for small guided munitions that will 
provide greater lethality with increased efficiency by allowing Army 
aviators to employ the most appropriate munitions against a range of 
threats.
    Mr. Turner. Please comment on the Army's plan to implement warhead 
technology on small guided munitions used by rotorcraft that are 
capable of neutralizing a wider spectrum of targets such as light and 
up-armored vehicles, bunkers, and structures.
    General Lundy. The Army will field scalable and tailorable Aviation 
munitions and their associated equipment to improve precision and 
lethality. Currently, the Army is employing the Advanced Precision Kill 
Weapon System (APKWS), in support of a current operational need. To 
further enhance this capability, the Army is exploring the feasibility 
of expanding guided rocket capability through warhead modernization and 
ensuring capabilities are integrated on current manned and unmanned 
platforms.
    Additionally, research into precursor warheads for larger anti-tank 
munitions suggests their suitability for penetrating warheads for small 
guided munitions. A feasibility study of a small diameter penetrator 
coupled with a follow-through grenade also indicated suitability 
against personnel in urban structures, bunkers, and medium armor.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. I am aware that there are American companies currently 
researching commercial technologies that combine three-dimensional (3-
D) visualization using camera, thermal and satellite imagery, recording 
and networking capabilities into a single cockpit platform to 
facilitate mission planning and execution. My understanding is that 
this technology already exists within the SOF aviation community. Is 
the plan to also purchase this technology to incorporate into the 
conventional Army aviation community and where does the R&D priority 
for this technology fall within the overall Army R&D efforts?
    General Lundy. There is no plan for the Army to incorporate 3D 
visualization into the cockpit of the current Army helicopter fleet.
    The Army is pursuing development and demonstration of technologies 
for displays and cueing to enhance pilot situational awareness, both in 
normal operations and Degraded Visual Environments. The Army is aware 
of commercial research in the area of 3-D visualization and will 
continue to monitor the progress of this technology for possible 
insertion into the efforts mentioned above.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BRADY
    Mr. Brady. DARPA has embarked on the development and flight 
demonstration of the Aerial Reconfigurable Embedded System (ARES) VTOL 
UAS. The objective of this demonstration is the flight validation of a 
modular and affordable VTOL UAS with a small footprint that can provide 
multi-mission support to small units conducting distributed and 
expeditionary operations. We understand the Army Aviation is exploring 
the benefits of evolving its current fixed wing ISR UAS capabilities 
toward a more forward deployed embedded VTOL capability. And that US 
Army's CASCOM has also identified autonomous aerial resupply as a top 
priority in the future force. Is a multi-mission VTOL UAS with multi-
role capability across broad range of military operations and 
environments of interest to the Army? Is the DARPA ARES flight 
demonstration relevant to informing development of these requirements, 
and does the Army have plans to fund further development and 
demonstration of such capabilities in the future.
    General Lundy. Yes, a multi-mission Vertical Take Off and Landing 
(VTOL) Unmanned Aerial System (UAS) is of interest to the Army. The 
Army is currently coordinating a ``Family of UAS'' requirements 
document which addresses a VTOL UAS with multi-role capability. The 
desired capabilities would effectively correct the current overreliance 
on runways, shortfalls in survivability, and operations in Global 
Positioning System-denied environments. The document will also require 
the materiel solution to work with modular payloads to address current 
gaps in unmanned Intelligence, Surveillance and Reconnaissance and 
logistics resupply
    The DARPA ARES flight demonstration is also relevant to informing 
development of VTOL UAS requirements. The Army does have plans to fund 
development and demonstration of like capabilities in the future. The 
Army's Aviation Center of Excellence, in particular, is interested in 
multi-mission VTOL UAS. We believe this innovative technology has 
potential applications providing the Army, the Marine Corps, and other 
Services an unmanned vertical lift capability. Technology such as ARES 
also has the potential for a runway-independent UAS and to serve a 
broad range of mission requirements for tactical Army formations.

                                  <all>
</pre></body></html>
